         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       Total Maximum Daily Load
       Program Needs Better Data and
       Measures to Demonstrate
       Environmental Results
       Report No. 2007-P-00036

       September 19, 2007
Report Contributors:	             Susan Barvenik
                                  Renee McGhee-Lenart
                                  Laura Tam
                                  Dan Engelberg




Abbreviations

EPA          U.S. Environmental Protection Agency
FY           Fiscal Year
GPRA         Government Performance and Results Act
NPDES        National Pollutant Discharge Elimination System
NTTS         National TMDL Tracking System
OIG          Office of Inspector General
OMB          Office of Management and Budget
PART         Program Assessment Rating Tool
TMDL         Total Maximum Daily Load
USDA         U.S. Department of Agriculture
                        U.S. Environmental Protection Agency 	                                          2007-P-00036
                                                                                                   September 19, 2007
                        Office of Inspector General


                        At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review              Total Maximum Daily Load Program Needs Better Data
The Office of Inspector             and Measures to Demonstrate Environmental Results
General (OIG) began this
project to identify issues in the    What We Found
Total Maximum Daily Load
(TMDL) program that would           EPA does not have comprehensive information on the outcomes of the Total
be suitable for future              Maximum Daily Load (TMDL) program nationwide, nor national data on TMDL
evaluations. Our preliminary        implementation activities. Although EPA and States are responsible for
review revealed issues for          implementing point source TMDLs, EPA cannot identify all of the permitted
Agency management to                dischargers that should receive or have received wasteload allocations.
review at this time concerning      Measuring nonpoint source TMDL implementation is difficult because it is highly
TMDL program data and               dependent on State and local stakeholders, and EPA does not have statutory
performance measures.               authority to regulate nonpoint sources. EPA's lack of information prevents the
                                    Agency from determining if TMDL implementation activities are occurring in a
Background                          timely manner, and the extent to which TMDLs are restoring impaired waters.
TMDLs are designed to play a
critical role in restoring          EPA measures the pace at which TMDLs are developed and approved. For the
impaired waters by calculating      last 2 years, EPA and States have exceeded goals for these measures. EPA has
pollutant loads consistent with     begun to take steps to measure program results and improve program data, has
water quality standards. A          sponsored several studies of TMDL implementation, and is studying additional
TMDL specifies the amount of        TMDL results measures. Developing meaningful measures of the environmental
a pollutant that a water body       results of water quality programs is challenging. However, EPA needs to provide
may receive and still meet          more management direction to improve its ability to assess how well this critical
water quality standards. EPA
                                    program is functioning.
is responsible for working
with States to develop TMDLs
to address impaired waters.         The TMDL and surface water quality performance measures we reviewed do not
EPA had approved over               provide clear and complete metrics of the program’s accomplishments. Since the
24,000 TMDLs through Fiscal         TMDL program did not have any outcome measures, we reviewed the two TMDL
Year (FY) 2006. To achieve          output measures along with two of EPA’s annually reported surface water quality
environmental results, TMDLs        measures that are broader than, but related to, the TMDL program. All of these
must be implemented through         measures are unclear, and some are inconsistently reported in EPA’s publications.
National Pollutant Discharge
Elimination System (NPDES)
permits or best management           What We Recommend
practices.
                                    We recommend that the Assistant Administrator for the Office of Water:
For further information,            •	 Require regions to ensure that the National TMDL Tracking System is
contact our Office of                   complete.
Congressional and Public
Liaison at (202) 566-2391.          •	 Report information on TMDL implementation activities and on the water
                                        quality improvements associated with TMDLs.
To view the full report,
click on the following link:
                                    •	 Clarify terminology, activities included, and other elements of the TMDL
www.epa.gov/oig/reports/2007/           development measures, and the surface water program’s efficiency and
20070919-2007-P-00036.pdf               effectiveness measures.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 19, 2007

MEMORANDUM

SUBJECT:	 Total Maximum Daily Load Program Needs Better Data and Measures
          to Demonstrate Environmental Results
          Report No. 2007-P-00036


FROM:	         Wade T. Najjum
               Assistant Inspector General, Office of Program Evaluation

TO:	           Benjamin Grumbles
               Assistant Administrator, Office of Water


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $188,780.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at 202-566-0827 or
najjum.wade@epa.gov; or Dan Engelberg, Director for Program Evaluation, Water Issues, at
202-566-0830 or engelberg.dan@epa.gov.
                     Total Maximum Daily Load Program Needs Better Data and Measures
                                  to Demonstrate Environmental Results



                                         Table of Contents 

Purpose ................................................................................................................................    1


Background ..........................................................................................................................       1


Noteworthy Achievements..................................................................................................                   4


Scope and Methodology .....................................................................................................                 5


More Data Needed to Quantify Results of TMDL Implementation...................................                                              5


Performance Measures are Not Clear and Complete .......................................................                                     8


Conclusions .........................................................................................................................      12     


Recommendations...............................................................................................................             12     


Agency Comments and OIG Evaluation ............................................................................                            13     


Status of Recommendations and Potential Monetary Benefits.......................................                                           15     




Appendices
     A       Response by the Office of Water .........................................................................                     16     


     B       Distribution ...........................................................................................................      25 

Purpose
                EPA and States have identified nearly 39,000 waterbodies that do not meet one or
                more water quality standards. Under the Clean Water Act, States are required to
                develop Total Maximum Daily Loads (TMDLs) for these impaired waterbodies.
                A TMDL is a calculation of the maximum amount of a pollutant that a waterbody
                can receive and still meet water quality standards, and an allocation of that
                amount among the sources that discharge the pollutant.1 EPA must review and
                approve States’ lists of impaired waters, and the TMDLs developed to address
                them. As of October 2006, EPA and States had developed approximately 24,000
                TMDLs, and estimated that 45,000 more need to be developed.

                We began this project to identify issues in the TMDL program that would be
                suitable for future program evaluations. Our objective was to obtain more
                information about the program, including the status of TMDL development and
                implementation, EPA’s resource investment, and performance measures.
                However, the scope of our preliminary review broadened as we examined the
                program, revealing issues appropriate for Agency management to review. These
                issues concern TMDL program data and performance measures and two published
                surface water program performance measures.

Background

                TMDLs are designed to play a critical role in restoring impaired waters. They
                establish a pollutant budget for waterbodies in which other principal parts of the
                program – the National Pollutant Discharge Elimination System (NPDES) and the
                Section 319 Nonpoint Source program – have
                not controlled all causes of impairment (see                 Pollution Sources
                box). EPA’s Office of Water has a number of
                                                                   Point Sources – direct discharges
                tools and programs to protect, improve, and        through a manmade conveyance
                maintain water quality. These other clean          to surface waters.
                water programs contribute to water quality
                                                                   Nonpoint Sources – Indirect
                results that may not be directly related to        discharges to surface waters from
                TMDLs. For example, the NPDES Permit               diffuse sources (e.g., land use,
                Program establishes technology or water            forestry, and farmland).
                quality-based discharge limits for facilities
                                                                   Source: www.epa.gov/owow/nps/qa.html
                discharging directly to surface waters, known      & http://cfpub.epa.gov/npdes/index.cfm
                as point sources. The Section 319 Nonpoint
                Source Program provides grant funding for implementing best management practices
                to control nonpoint source pollution, or runoff. While this program is voluntary at
                the Federal level, States may include regulatory components in their Section 319
                programs. Other Federal agencies, such as the United States Department of
                Agriculture (USDA), fund voluntary nonpoint source control programs.

1
 EPA must approve or disapprove each TMDL. If the Agency does not approve a TMDL, EPA must develop the
TMDL itself.


                                                   1

                EPA and States’ monitoring efforts have assessed water quality in approximately
                19 percent of stream miles and 43 percent of lake acres, according to EPA’s most
                recent national water quality inventory. Even with the existence of the NPDES
                and nonpoint source programs, 40 percent of the Nation’s assessed waters still do
                not meet water quality standards. The TMDL program is designed to address
                these impaired waters. Section 303(d) of the 1972 Clean Water Act requires
                States, territories, and authorized tribes to develop lists of impaired waters every
                2 years, known as 303(d) lists. EPA must approve or disapprove of States’ 303(d)
                lists. If EPA disapproves a 303(d) list, it is responsible for establishing the list
                itself.

                After EPA approves the 303(d) list, the law requires States, territories, and
                authorized tribes to develop TMDLs for the impaired waterbodies on their lists.

                TMDL Development and Implementation

                During the early years of the TMDL program, EPA and States developed few
                TMDLs. Due to the States’ slow start in developing TMDLs in the late 1990s
                (see Figure 1), citizen groups brought numerous lawsuits regarding developing
                TMDLs throughout the country. From FY 2004 to FY 2006, EPA and States have
                developed (and EPA has approved) over 12,000 TMDLs. Since the program
                began, over 24,000 TMDLs have been developed and recorded in EPA’s TMDL
                data system, the National TMDL Tracking System (NTTS). These TMDLs are
                categorized as point source only (approximately 7 percent of the universe),
                nonpoint source only (44 percent), or a combination of nonpoint source and point
                sources (44 percent).2 From the time it is developed and approved, a TMDL may
                take many years to be substantially implemented on the ground.

                Developing and approving TMDLs does                    TMDL Implementation:
                not result in water quality changes.                         Two Options
                Achieving TMDLs' water quality goals
                                                              1. Wasteload Allocations are
                rests on implementing them through            incorporated into NPDES permit limits.
                controls such as NPDES permits and
                                                              2. Load Allocations are implemented
                best management practices. EPA and            in nonpoint source best management
                States must ensure that NPDES permits         practices.
                are consistent with wasteload allocations
                assigned to point source-related TMDLs Source: Title 40, Code of Federal Regulations,
                (see box). However, the Clean Water          Section 130.7; and EPA’s Office of Water
                Act does not provide EPA with a parallel
                authority to institute controls on nonpoint sources. States can but are not required
                to regulate nonpoint sources to achieve the goals set out in TMDLs.
                Implementation activities for many TMDLs may take many years to result in


2
  Approximately 5 percent of TMDLs in the National TMDL Tracking System are not categorized by type. Many of
these TMDLs are from the earliest years of the program.


                                                     2

measurable water quality improvements, or to restore a waterbody to its
designated uses.

        Figure 1: Developed and Approved TMDLs 

        by Fiscal Year (FY) through FY 2006 




     5000

     4000

     3000
                                                          TMDLs
     2000
                                                          approved
     1000

          0
         96

                98

                       00

                              02

                                     04

                                            06
       19

              19

                     20

                            20

                                   20

                                          20



Source: http://oaspub.epa.gov/waters/national_rept.control. 

Data downloaded from EPA’s WATERS database as of 10/31/2006. 



Resources Spent on the TMDL Program

EPA and States have devoted significant funding and resources to the TMDL
program. Between FY 2002 and FY 2006, EPA expended approximately $53
million for the TMDL program. This investment, as well as those of the States
and other sources, has resulted in developing and approving over 24,000 TMDLs
to date. These resources also funded other program activities such as listing
impaired waters, responding to TMDL litigation, and supporting the national
TMDL database. In 2001, EPA estimated that the total average annual costs to
EPA and States of developing about 36,000 TMDLs over 15 years would be
between $63 to $69 million per year, totaling approximately $1 billion
nationwide. According to Office of Water staff, the Agency does not have a
recent estimate of the nationwide cost of implementing these TMDLs, but expects
to complete several projects that compare costs of watershed versus water body
approaches during the summer of 2007.

Measuring Results

Federal agencies use various performance measures to assess program
effectiveness and make improvements. The Government Performance and
Results Act of 1993 (GPRA) requires EPA to set long-term and annual goals, and
to measure the results of its programs and report annually to Congress. GPRA


                                     3

         makes agencies accountable to Congress and the public for their performance by
         requiring them to report on goals, resource needs, and results. The Office of
         Management and Budget (OMB) has initiated Program Assessment Rating Tool
         (PART) reviews and assessments of Federal programs focusing on effectiveness.
         Based on PART reviews, OMB may require agencies to develop additional
         program measures to address specific issues, such as efficiency. In 2005, OMB
         conducted a PART review of surface water protection program, which included
         the TMDL program. OMB rated the surface water protection program
         “moderately effective,” and described it as having ambitious baselines and targets
         for most of its annual measures. However, the review also found that EPA lacked
         statistically valid national water data, which severely hindered EPA’s ability to
         make informed decisions regarding the surface water protection program
         priorities, resource allocation, and program management. EPA also reports to
         Congress on PART-generated measures in its Annual Plan and Congressional
         Justifications (hereafter referred to as Annual Performance Plans) and
         Performance and Accountability Reports.

Noteworthy Achievements
         EPA and States exceeded 100 percent of their annual pace goal for developing
         TMDLs in both FY 2005 and FY 2006. Prior to our initiating this review, the
         program had also taken steps to improve its outcome measures and program data.
         It has sponsored several studies of TMDL implementation and is studying
         additional TMDL results measures. For example, Region 10 conducted a study of
         Washington State's TMDL implementation, which was published in 2005. EPA
         also conducted an internal review of 100 TMDL documents and contracted a
         study of characteristics of successful TMDL implementation.

         EPA has several ongoing and planned efforts designed to obtain additional
         information regarding TMDL implementation tracking. Region 3 has developed a
         tracking system that identifies NPDES permits associated with TMDLs and is
         further refining its database to reflect wasteload allocations and load allocations.
         Results analysis is a major 5-year theme for the national program office, which is
         sponsoring dialogues among TMDL coordinators and watershed managers and
         offering grants to States and other national organizations. The program has also
         taken steps to improve management information by integrating the national
         databases on water quality assessments and TMDL information, and updating
         data management business rules. EPA also has ongoing efforts to develop and
         refine measures of the TMDL program’s results through a national workgroup
         and a study of potential additional results measures.




                                          4

Scope and Methodology
                We began our work in August 2006 and completed our work in May 2007. The
                OIG has previously issued two reports to the Office of Water related to data
                quality issues and program measures.3 The scope of this review was limited to
                the results of the TMDL program as it contributes to national clean water
                objectives. We did not review any specific TMDLs for quality or on the ground
                results. We reviewed publicly reported TMDL performance measures in the FY
                2007 and 2008 Annual Performance Plans. Since the TMDL program did not
                have any outcome measures, we reviewed two of EPA’s annually reported surface
                water quality measures that are related to the TMDL program.

                We interviewed EPA headquarters officials and staff from the Office of Wetlands,
                Oceans, and Watersheds. We interviewed TMDL staff from Regions 1, 3, 4, 7,
                and 10. We also interviewed TMDL staff from two States: Georgia and Kansas.
                We identified publicly available databases on the EPA Internet site as well as
                EPA-internal databases that provided data regarding TMDLs and associated
                NPDES permits. We reviewed the FY 2005, 2006, 2007, and 2008 Annual
                Performance Plans, the FY 2005 and 2006 Performance and Accountability
                Reports, and the draft and final Strategic Plan for 2006-2011. We also reviewed
                the National Program Guidance for FY 2006, 2007, and 2008. We reviewed the
                PART information that was available regarding the TMDL program. We
                performed this evaluation in accordance with all Government Auditing Standards
                issued by the Comptroller General of the United States.

More Data Needed to Quantify Results of TMDL Implementation

                EPA does not have comprehensive data to determine the environmental results of
                TMDL implementation nationwide. The TMDL program achieves its outcomes
                of restoring impaired waters through two pathways: permit limit modifications
                and best management practices implemented on the ground (see Figure 2).
                However, nationally, EPA cannot identify all of the permits that should receive
                wasteload allocations, nor which actually have received them. EPA also cannot
                quantify the number or the results of best management practices completed
                nationally to implement nonpoint source-related TMDLs. EPA does not have the
                data to determine what TMDL implementation activities have occurred or the
                interim results of those activities. EPA has begun to collect limited information
                on TMDL implementation, which is necessary to determine if this program is
                moving towards its goal of restoring impaired waters.




3
 Sustained Commitment Needed to Further Advance Watershed Approach, Report No. 2005-P-00025, September
2005, and EPA Claims to Meet Drinking Water Goals Despite Persistent Data Quality Shortcomings, Report No.
2004-P-0008, March 2004.


                                                     5

     Figure 2: Stylized Model of Achieving Water Quality Changes through the TMDL Program

                            30 3(d) Listing
                                                     TM DL                 TM DL
     Im pa ired W ater       o f Im pa ire d
                                                 D e ve lop m en t    Im ple m en ta tio n
                                 W a te r


                                                W astelo ad           N P D E S P erm it          A ttain W a te r
                                                A lloca tion                Lim it                    Q ua lity
                                                                                                   S ta nd ard s/
                                                                        N P S B est                    M e et
                                                L oa d A llo cation    M an ag em e nt            D esign ated
                                                                          P ra ctice                   U se s




     Source: OIG analysis of EPA information


                 EPA does not have complete information in the National TMDL Tracking System
                 (NTTS) to determine which NPDES permits need to incorporate wasteload
                 allocations. Only 64 percent of point source-related TMDLs have NPDES or
                 other permit identifiers entered into NTTS (see Table 1).

                 Table 1: Point Source-Related TMDLs Linked with NPDES or Other Permit Identifier
                 in the National TMDL Tracking System (Program Totals through March 2007)

                                                                 Number of Point
                                                               Source-Related TMDLs
                                           Number of            Linked with NPDES
                                          Point Source-           Identifier/Other             Percent
                         Region          Related TMDLs            Permit Identifier           Populated
                            1                    159                         70                   44%
                            2                    282                        229                   81%
                            3                   1402                        380                   27%
                            4                   2963                      2771                    94%
                            5                   1513                      1327                    88%
                            6                    410                        179                   44%
                            7                   1968                      1251                    64%
                            8                   1087                        804                   74%
                            9                    912                          9                    1%
                           10                   2083                      1111                    53%
                          Total               12,779                      8,131                   64%

                 Source: Data from NTTS provided by EPA on 3/18/07


                 These identifiers link TMDLs with the discharge permits that must incorporate a
                 corresponding wasteload allocation.4 EPA and State permit writers need this

4
 Beginning in Fiscal Year 2003, EPA required regions to enter NPDES permit identifiers into NTTS. Since then,
83 percent of point source-related TMDLs have this information in the data system. While this shows an
improvement, information for all point-source related TMDLs needs to be entered into NTTS.


                                                        6

                 information to identify the NPDES permits that should receive wasteload
                 allocations, and the permit program needs this information to review if permits
                 are being written accordingly. EPA has identified the need to improve NPDES
                 permit information in NTTS as a high priority action item.5

                 EPA also does not track if TMDL wasteload allocations have actually been
                 incorporated into the appropriate NPDES permits. EPA and States are responsible
                 for ensuring that permit limits are consistent with any applicable wasteload
                 allocations when NPDES permits are renewed. At least two States, Pennsylvania
                 and Delaware, have indicated they can improve incorporating wasteload
                 allocations into permits. EPA staff believes that wasteload allocations are being
                 incorporated into permits by State permitting staff but does not have national data
                 to demonstrate this process is occurring.6

                 EPA is also unable to quantify the level of implementation of best management
                 practices nationwide. EPA does not have statutory authority for nonpoint source
                 TMDL implementation, and numerous parties may implement TMDLs and fund
                 implementation activities. Because of the diffuse nature of these activities,
                 information about best management practice implementation is difficult to collect
                 and track. EPA has begun collecting information on best management practice
                 activities in impaired watersheds funded by the Section 319 program. However,
                 Section 319 funding is not all dedicated to implementing specific TMDLs. Also,
                 USDA programs provide significantly greater best management practice funding
                 than the Section 319 program, although these best management practices are not
                 necessarily linked to water quality improvements related to TMDLs or impaired
                 waters. As a result, EPA does not have information to determine what best
                 management practices have been implemented and the results of those practices.

                 EPA’s efforts to collect TMDL information are a step in the right direction
                 towards understanding the program’s impacts. TMDL implementation is
                 complex, and highly dependent on State and local stakeholders. However, EPA’s
                 lack of information on TMDL implementation at the national level prevents the
                 Agency from determining if activities are occurring in a timely manner, and the
                 extent to which TMDLs are successfully restoring impaired waters. EPA should
                 continue to improve its databases and tracking systems to ensure that NPDES
                 permits are consistent with point source-related TMDLs.




5
  According to Office of Water staff, an Office of Water workgroup of permits and TMDL data systems staff is
identifying recommended steps to improve permit/TMDL information linkages. EPA said it is also fixing a database
loophole that previously allowed regions to circumvent this requirement when entering TMDL data into the
system.
6
  The presence of wasteload allocation data in NTTS does not ensure that wasteload allocations are or are not being
incorporated into permits. However, EPA does not track wasteload incorporation either in NTTS or the Permit
Compliance System, which tracks effluent limits for NPDES permittees.


                                                         7

Performance Measures are Not Clear and Complete
                 The TMDL development measures and two related surface water quality
                 measures do not provide clear and complete metrics of the TMDL program and its
                 contribution to improving surface water quality. Since the TMDL program did
                 not have any outcome measures, we reviewed the two TMDL output measures
                 along with two of EPA’s annually reported surface water quality measures that
                 are related to the TMDL program. The two surface water performance measures
                 were developed through OMB’s PART review of Surface Water Protection in
                 2005. While EPA cannot modify these PART measures without approval from
                 OMB, EPA can better communicate exactly what is being measured and what the
                 limitations of each measure are.

                 TMDL Development Measures are Not Clear

                 EPA’s two development measures in the FY 2008 Annual Report are not clear
                 and may mischaracterize EPA’s accomplishments (see Table 2).

                 Table 2: FY 2008 Annual Performance Plan Measures for TMDL Development
                                                                                                     FY 2008
                                    Annual Performance Plan Measure                                   Target
                 Number of TMDLs that are established by States and approved by EPA
                                                                                                      24,411
                 on schedule consistent with national policy (cumulative).
                 Number of TMDLs required that are established or approved by EPA on a
                                                                                                      28,401
                 schedule consistent with national policy (cumulative).
                 Source: EPA’s FY 2008 Annual Plan and Congressional Justification

                 First, the terminology used in these measures may be misinterpreted. These
                 measures are reporting on the number of TMDLs developed, but that term does
                 not appear anywhere in the measures. The public could incorrectly assume that
                 use of the term “established” means that the TMDL is fully implemented and
                 water quality standards are being attained. However, States and EPA can develop
                 and approve TMDLs without specific implementation plans and some do;7 only
                 some States require including such plans in TMDL documents. EPA agreed to
                 make this change and proposed the word “developed” rather than “established” in
                 its draft FY 2008 National Program Guidance.

                 Second, EPA has not consistently counted TMDLs in this measure. Although a
                 TMDL is defined as a waterbody-pollutant combination, the numbers reported for
                 this measure also include the cause of the waterbody being impaired. Thus, a
                 single TMDL was counted for several causes of impairment that it addresses. By
                 counting TMDLs this way, the reported number of developed TMDLs is inflated
                 by approximately 6 percent (approximately 1,300 TMDLs). In comments to the
                 draft report, EPA informed us that the TMDL program approved a revised
7
 Based on final report: TMDL Implementation—Characteristics of Successful Projects, prepared by the Center for
TMDL and Watershed Studies at Virginia Tech, May 3, 2006.


                                                       8

                    counting methodology development paper at its March 2007 national meeting.
                    This method resolves regional variation related to any potential miscounting and
                    promotes consistency across all regional reporting of TMDL totals based on the
                    water body segment/pollutant combination concept. According to Office of
                    Water’s response, the TMDL program will institute the corrected count in its data
                    systems during August 2007, and program documents from the end of FY2007
                    onward will reflect the revised counting methodology.

                    EPA’s Reporting of the Water Quality Restoration Measure
                    Mischaracterizes Changes in Impaired Water Status

                    EPA's reporting of its 2012 strategic target and annual effectiveness measure (that
                    reports the number of impaired waters fully attaining standards) inflates the extent
                    of water quality improvements achieved. The baseline year and units of the
                    effectiveness measure have been presented inconsistently in annual reports and
                    strategic planning documents. The target is one of EPA’s keystone results
                    measures (see box). Although this surface water measure is not specific to
                    TMDLs, TMDL implementation contributes to water quality standard
                    achievements counted for this measure.

                        Full Restoration Strategic Target for the 2006-2011 Strategic Plan (Measure L)
                      By 2012, attain water quality standards for all pollutants and impairments in more 

                      than 2,250 water bodies identified in 2002 as not attaining standards (cumulative). 

                      (2002 Baseline: 39,798 water bodies identified by States as not meeting water 

                      quality standards. Water bodies where mercury is among multiple pollutants 

                      causing impairment may be counted toward this target when all pollutants but 

                      mercury attain standards, but must be identified as still needing restoration for 

                      mercury [1,703 impaired water bodies are impaired by multiple pollutants including

                      mercury, and 6,501 are impaired by mercury alone].) 

                    Source: EPA’s 2006-2011 Strategic Plan8


                    The strategic target’s title and description noted in the box above do not
                    accurately reflect what it being measured. The target is presented as a
                    “restoration” measure implying that it captures waters that have been restored by
                    some activity, thus “attaining” water quality standards. EPA also reports annually
                    on the progress of this measure. Certain program activities, such as TMDLs and
                    best management practices, may result in actual water quality outcomes being
                    tracked under this target. However, EPA defines the target and the annual
                    measure more broadly, and counts waters as restored due to changes from other
                    program activities that do not cause water quality changes. Most of these factors
                    do not reflect actual changes in environmental quality (see box next page).




8
    EPA clarified that effective May 23, 2007, the 2002 Baseline for Measure L is 38,935.


                                                           9

E               Factors for Counting Waters in Strategic Target L
P
•	 Water no longer is impaired because of restoration activities; meets water quality
A standards.
•	   New monitoring data show water meets water quality standards; reason for recovery
a unspecified.
•	
l Original basis for 303(d) listing is incorrect; water meets water quality standards.
•	
S Change in water quality standards assessment methodology; water meets water
   quality standards.
•	 Water originally listed as threatened but has continued to meet water quality
   standards and is no longer considered threatened.
•	 Change in water quality standards; data show that water meets new water quality
   standards.

Source: EPA’s 2006-2011 Strategic Plan, Water Quality/Watershed Subobjective

EPA cannot break out the results of the measure in terms of these various factors
to determine which waters have been restored. The Office of Water reported that
it is working with its regional staff on adapting its data systems to allow separate
tracking of these factors in future years, for tracking and evaluation purposes.

EPA needs to report actual water quality changes for this measure. We agree that
it is important for the Agency and States to track changes in listing impaired
waters, accurately monitoring waterbodies, and ensuring that water quality
standards are appropriate, in order to have information to manage the program.
We understand that this PART measure was developed to measure both outcomes
and outputs of various surface water quality programs, and to demonstrate
program effectiveness. However, counting waters as “attaining” standards when
no physical change has occurred produces results that could be misleading. For
example, in its FY 2006 Performance and Accountability Report, EPA said that it
“continued to exceed its interim targets” and had “restored 12.1 percent of the
waters identified in 2000 as impaired” [emphasis added]. EPA anticipated that
the reported success rate would not be as high in future years, once the “easier
restorations” declined, such as those based on improved assessments. According
to Office of Water staff, EPA cannot change this PART measure without approval
from OMB, but it can clarify exactly what is being measured in its annual
performance plans and reports. EPA should strive to break out the categories
included in this measure to demonstrate the physical water quality improvements
that can be attributed to its program activities.

Finally, the baseline year and units of this effectiveness measure have been
presented inconsistently between recent annual reports and strategic planning
documents. For example, the 2006-2011 Strategic Plan and FY 2008 Annual
Performance Plan use a baseline of 2002, while recent annual reports, National
Program Guidance, and Agency staff have indicated that the baseline is actually
2000. The FY 2008 Annual Performance Plan uses different units for the baseline
(miles/ acres) than for the text of the measure itself which uses the term
“waterbody segments.” EPA must clarify the baseline (year of data and units) in
order to consistently track the achievements of this measure in the future. EPA


                                    10 

                  has stated that it will ensure accurate reporting of the measure and its baseline in
                  future planning and performance reports.

                  Measure of Water Quality Restoration Efficiency Is Flawed

                  The PART-generated efficiency measure for surface water quality that EPA
                  utilizes, cost per water segment restored, has severe limitations that prevent it
                  from being a useful management tool. The measure, also not specific to TMDLs,
                  is unclear because no relationship exists between the costs included in the
                  measure and results. It includes costs not directly associated with impaired
                  waters. In addition, the portion of the measure reflecting water segments contains
                  the same weaknesses as the effectiveness measure discussed above. Efficiency
                  measures are used to capture a program’s ability to implement its activities and
                  achieve results relative to costs. As a result of its deficiencies, this efficiency
                  measure does not provide meaningful management information (see Table 3).

                  Table 3: Annual Efficiency Measure in FY 2008 Annual Performance Plan
                                                 FY 2006 Actual        FY 2007 Targeted          FY 2008 Target
                   Cost per water              $576,618 per            $636,744 per            $685,611 per
                   segment restored            water segment           water segment           water segment
                  Source: EPA’s FY 2008 Annual Plan and Congressional Justification

                  The measure presented in the FY 2008 Annual Performance Plan is incomplete in
                  two ways. First, not all Section 106 program funding is used for restoration
                  activities. The Section 106 program funding9 included in the measure can be used
                  for activities such as developing water quality standards and discharge permits.
                  Some of these are program activities associated with maintaining water quality
                  and therefore these funds are not being used to restore waterbodies. Activities to
                  restore impaired waters are broad and carried out by a number of groups, which
                  makes tracking Section 106 program expenditures burdensome and leads to lack
                  of uniform reporting by States. But unless EPA can estimate the share of Section
                  106 funds devoted to restoration-related activities, the costs in the measure may
                  be overstated.

                  Second, the denominator, “water segments restored,” has the same limitations as
                  Measure L, discussed above. The segments counted in this measure include
                  waters found to meet standards for reasons other than measurable environmental
                  change, such as a new water quality standard or new monitoring data.

                  This efficiency measure does not provide meaningful management information.
                  Measuring the efficiency of government programs can be very challenging.
                  While EPA staff recognized weaknesses in the measure, they stated that OMB
                  required them to develop an efficiency measure. Currently, the measure could

9
  The Section 106 funds presented include the Federal 106 dollars to the States plus the State matching funds for the
maintenance of effort portion. The State portion is the statutory match, by States, required in order to receive a
portion of the Section 106 funds appropriation. The Federal and State funds are cumulative since 2000.


                                                         11 

         lead decision makers and the public into thinking more restoration activity is
         taking place than is actually occurring. EPA should clarify how it reports
         information about this measure in its annual performance plans and reports.

Conclusions

         EPA does not have adequate management information on a national basis to
         determine the results of the TMDL program, and the extent to which it is helping
         to restore impaired waters. EPA has studied TMDL implementation in various
         States and regions and began making changes to its TMDL tracking system to
         improve information quality prior to the start of our study. However, EPA has no
         TMDL-specific implementation or outcome measures, and little data exist on a
         national level for TMDL program results. EPA’s TMDL development measures
         are output-oriented, and its more holistic measures of surface water quality
         programs that include the TMDL program are unclear. Although they may be
         difficult to obtain, EPA needs more data to effectively oversee the program and
         determine if it is on track with national clean water objectives.

         While EPA may be limited in removing or revising PART-measures because of
         OMB requirements, EPA can do more to clarify and communicate exactly what
         each measure is tracking, and what the limitations of each measure are. We
         understand that EPA is reducing the number of measures it has so that it can
         reduce the reporting burden on the States. However, clear and complete measures
         are needed so that EPA and Congress can determine the results of this key water
         program. The TMDL program lacks the information it needs to assess program
         effectiveness. We believe that this constitutes a management control weakness
         that needs to be addressed through the steps indicated below.

Recommendations
         We recommend that the Assistant Administrator for the Office of Water:

         1-1 	   Require regions to ensure that point source-related TMDLs in the National
                 TMDL Tracking System are associated with NPDES identifiers.

         1-2 	   Demonstrate that TMDLs are being implemented by annually reporting on
                 the progress of TMDL implementation activities completed nationwide
                 including the number of TMDLs:

                  •	 that have all wasteload allocations incorporated into NPDES permits,
                  •	 that have implemented load allocations through at least one best
                     management practice funded through the Section 319 Program, and
                  •	 for which implementation data are not available to EPA.




                                          12 

         1-3     Demonstrate the results of implemented TMDLs by annually reporting
                 on the progress of water quality improvements resulting from TMDLs
                 nationwide.

         1-4 	   Revise the counting methodology to eliminate double-counting of
                 developed TMDLs in EPA’s Annual Performance Plan and Annual Report
                 and clarify terminology for the two TMDL development measures.

         1-5 	 Consistently disclose in Measure L and the efficiency measure that water
               segments reported include segments removed from the impaired waters
               list due to administrative changes.

         1-6 	   Ensure consistency and accuracy of information between the measure and
                 baseline for the effectiveness measure for restoring waters (Measure L and
                 Annual Performance Measure) in the Annual Performance Plan and any
                 strategic planning guidance.

         1-7 	   Disclose the categories of non-restoration costs included in the efficiency
                 measure in the Annual Performance Plan.

Agency Comments and OIG Evaluation
         The Office of Water generally concurred with five of the six draft report
         recommendations, most with comment, and proposed one alternative
         recommendation. EPA’s detailed response is shown in Appendix A. In response,
         we have added detail to our recommendation that EPA develop an
         implementation metric, and replaced the two draft recommendations regarding
         measures with three in order to clarify the activities that EPA needs to do to
         improve those measures. We have also made minor clarifications where
         appropriate in response to the Office of Water’s comments. For Recommendation
         1-1, we accept Office of Water’s response.

         EPA did not concur with the draft report recommendation 1-2 due to data
         availability and feasibility concerns and proposed an alternative recommendation:
         Report annually on TMDL implementation actions funded or tracked directly by
         EPA and analyze whether voluntary cost-effective methods to obtain additional
         forms of implementation information can be developed. We understand that EPA
         cannot require States to report on all data for the program. However, it is
         important for EPA to be able to determine the results of the TMDL program due
         to its significant resource investment in TMDL development. We have revised
         the recommendation to indicate the types of data that should be reported by the
         program based on data readily available to the Agency and also request that EPA
         account for TMDLs for which it lacks readily accessible implementation data. In
         our opinion, until EPA collects and analyzes this information, the inability to
         judge program effectiveness is a management control weakness.
         Recommendation 1-2 remains open and the disposition undecided.


                                          13 

EPA concurred with draft report Recommendation 1-3 with the comment that it
could be addressed in conjunction with the draft report recommendation regarding
Measure L. However, EPA's response to the draft report recommendation
regarding Measure L (now Recommendation 1-6) indicated that specific data
breakdown for the measure could not be assured. Therefore, we have retained
draft report Recommendation 1-3 as a separate recommendation. We do agree that
both recommendations may be addressed together depending on the steps taken in
response to Recommendation 1-6. Recommendations 1-3 and 1-6 remain open
and the disposition undecided.

EPA concurred with draft report Recommendation 1-4. However, EPA’s
corrective actions only addressed part of the recommendation on revising the
counting methodology. EPA needs to address how they will clarify the
terminology for the two TMDL development measures. Recommendation 1-4
remains open and the disposition undecided.

Draft recommendation 1-5 was modified and broken out into two
recommendations (1-5 and 1-6) in the final report to provide more specificity.
Recommendation 1-5 specifically addresses the need to disclose in Measure L and
the efficiency measure that water segments reported include segments removed
from the impaired waters list due to administrative changes. Recommendation 1-
5 remains open and the disposition undecided.

For draft report Recommendation 1-6 (now 1-7), EPA concurred that the measure
should be clarified but restated that the measure currently provides valuable
management information. The OIG's position is that the measure will not reflect
the recommended improvements until action is taken on its commitments. We
further modified the draft recommendation for clarity. Recommendation 1-7
remains open and the disposition undecided.

We met with officials and staff in the Office of Water to discuss minor revisions
to our conclusion and recommendations subsequent to the formal draft report.
EPA officials' position was that the TMDL program's effectiveness is defined by
its statutory authority. The officials were concerned that the report’s
interpretation of program effectiveness encompasses outcomes outside of the
TMDL program’s statutory role to track impaired waters and develop TMDLs.
The officials stated that the TMDL program meets its statutory mandate to
develop and finalize TMDLs, but lacks data to assess their subsequent
implementation by States and their environmental results. The officials stated that
the Office of Water is not only committed to a long-term process for measuring
results, but also has made significant progress on results measurement both within
and beyond its statutory role. We agree that EPA is making progress measuring
results; however, our position is that the Agency must collect data on TMDL
implementation to determine the water quality impacts of the TMDL program.




                                14 

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1        Action Official             Date      Amount      Amount

    1-1      12     Require regions to ensure that point source-related     O       Assistant Administrator for
                    TMDLs in the National TMDL Tracking System are                     the Office of Water
                    associated with NPDES identifiers.

    1-2       12    Demonstrate that TMDLs are being implemented            U       Assistant Administrator for
                    by annually reporting on the progress of TMDL                      the Office of Water
                    implementation activities completed nationwide
                    including the number of TMDLs:
                   • that have all waste load allocations incorporated
                     into NPDES permits
                   • that have implemented load allocations through
                     at least one best management practice funded
                     through the Section 319 program, and
                   • for which implementation data are not available
                     to EPA

    1-3       13    Demonstrate the results of implemented TMDLs by         U       Assistant Administrator for
                    annually reporting on the progress of water quality                the Office of Water
                    improvements resulting from TMDLs nationwide.

    1-4       13    Revise the counting methodology to eliminate            U       Assistant Administrator for
                    double-counting of developed TMDLs in EPA’s                        the Office of Water
                    Annual Performance Plan and Annual Report and
                    clarify terminology for the two TMDL development
                    measures.

    1-5       13    Consistently disclose in Measure L and the              U       Assistant Administrator for
                    efficiency measure that water segments reported                    the Office of Water
                    include segments removed from the impaired
                    waters list due to administrative changes.

    1-6       13    Ensure consistency and accuracy of information          U       Assistant Administrator for
                    between the measure and baseline for the                           the Office of Water
                    effectiveness measure for restoring waters
                    (Measure L and Annual Performance Measure) in
                    the Annual Performance Plan and any strategic
                    planning guidance.

    1-7       13    Disclose the categories of non-restoration costs        U       Assistant Administrator for
                    included in the efficiency measure in the Annual                   the Office of Water
                    Performance Plan.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                15 

                                                                           Appendix A

                    Response by the Office of Water

                                             July 10, 2007

MEMORANDUM

SUBJECT:       Total Maximum Daily Load Program Needs Better Data and Measures to
               Demonstrate Environmental Results, Assignment No. 2006-001552, Draft
               Report

FROM:          Benjamin H. Grumbles /s/
               Assistant Administrator

TO:            Dan Engelberg
               Director of Program Evaluation
               Office of the Inspector General

       Thank you for the opportunity to comment on your Office=s draft report, Total Maximum
Daily Load Program Needs Better Data and Measures to Demonstrate Environmental Results.
I am responding to the overall findings and recommendations in the body of this memorandum,
with more detailed technical comments in the attachment.

       The Office of Water (OW) appreciates the attention that the Office of Inspector General
(OIG) has brought to the efforts we are undertaking to assess TMDL program effectiveness, the
progress already made, and the remaining challenges we face in documenting TMDL program
outputs and outcomes. As you reported, several noteworthy achievements have been reached by
EPA and the States, such as exceeding 100% of TMDL development pace in recent years. The
TMDL program’s own efforts to improve its effectiveness have spanned studies of
characteristics of successful TMDLs and driving factors of implementation, analyses of recent
TMDL documents, improvements in data systems and performance measures, a broad dialogue
with States, regions and practitioners on TMDL results analysis, and joint efforts to improve
EPA data on the linkages of NPDES permits and TMDLs.

        Several elements that complicate TMDL program tracking and evaluation are also
evident in your review, including: the large numbers of impaired waters, long recovery time
frames, high costs of restoration, the States’ reporting burden, and the limited authority of EPA
to require new post-TMDL monitoring, data tracking, and reporting. Also noted is the
integration of the TMDL program with other surface water protection programs based on the
common goals they seek, and a side effect of integrated programs – difficulty isolating the
effectiveness of the TMDL program alone. Further, the costs of national tracking, reporting and
assessment can draw down resources available for TMDLs and restoring impaired waters. Even




                                                 16 

with these challenges, OW had already been working before your review on improving data, data
systems, and performance measures consistent with many of the draft’s findings.

Before addressing the report’s findings and recommendations, I would like to note three
overarching issues that are particularly important to the draft report recommendations and our
response:

Clarity and calculation of measures. We agree that clear definitions and counting methods are
essential for good program measures, and below we describe improvements already underway.
OW has continually worked to improve clarity and has sought to establish thoroughly vetted
measures that are both meaningful and feasible for States to track and report. The draft report
notes the tension between number/content of performance measures and the reporting/tracking
burden on States. As you know, we cannot – and should not -- require States to report on all
possible measures of interest, thus data limits do constrain some of the potential options for
clarifying measures and counting methods as well as for related tracking and reporting.

Integrated vs isolated program implementation. Our program history has demonstrated that
integrated approaches, in which multiple programs work toward common goals, drive success in
watershed programs. Your review found that program outcomes of TMDLs are sometimes
inseparable from the combined effect of multiple surface water protection program activities
integrated around common restoration goals. For example, completed TMDLs are an output
easily attributed solely to the TMDL program, but TMDL implementation and environmental
outcomes of TMDLs are attributable to an array of pollution control actions – TMDL-related and
non-related, federal and non-federal. We share a keen interest in understanding the effectiveness
of all our programs but recognize that many outputs and outcomes are only measurable in
combination, as that is the way they are best implemented.

Program output/outcome data & systems. The insights from tracking come at a price. OW’s
substantial investment in data systems development and improvement demonstrates our
commitment to tracking and assessing program progress. In several discussions with your
Office, we have emphasized that there are substantial cost and logistical implications of reporting
annually and nationally on TMDL implementation and TMDL environmental outcomes. After a
point, tradeoffs between level of effort invested in reporting and actually restoring impaired
waters must be made by EPA and the States. OW has also noted in our ongoing communications
with the OIG that some options for tracking and reporting on implementation and documenting
TMDL outcomes would require highly improbable levels of voluntary reporting from all States.
Resource constraints must be factored into the actions we take to track and report on our
programs.

Responses on Review Findings and Recommendations

Recommendation 1-1. Require regions to ensure that point source-related TMDLs in the
National TMDL Tracking System are associated with NPDES identifiers.




                                                17 

We concur with this recommendation, with comment. OW has been requesting that NPDES
identifier information be included in NTTS since 2003 and has put checks into the data entry
system to enforce this request. However, during this OIG program evaluation the TMDL
program found a loophole in the data entry system that bypassed the internal checks. This
loophole is slated to be remedied by October 2007. Since 2003, OW has also been requesting
that either wasteload allocation information or a copy of the TMDL document be uploaded to
NTTS for every point source related TMDL. A data entry check will be put in place to enforce
this requirement as well, by October 2007.

Joint efforts between the TMDL and permits programs to scope TMDL and permit program
linkage improvements are already underway. Whether requiring NPDES identifier information in
our national TMDL database is key to State permit writers actually incorporating TMDL
information in permits is still an open question, given the contrast between the incomplete
population of the data field in NTTS and the apparently universal incorporation of wasteload
allocations in permits illustrated by a review of 308 TMDLs in Washington State. Nevertheless,
we share the interest in improving the inclusion of TMDL information into permits and
improving EPA's ability to measure this activity. Limitations on the feasibility of reaching 100%
linkage between NPDES information and TMDL information in a national database include the
absence of NPDES identifiers or georeferencing for tens of thousands of minor permits and
general permits in the PCS database. We look forward to additional recommendations and
actions based on scoping efforts of a workgroup including State and EPA permits staff and EPA
TMDL staff.

DECISION: CONCURRENCE
PLANNED COMPLETION: Oct 31, 2007 – OW will upgrade data entry system to remedy
loophole in NPDES identifier, and add wasteload allocation/document upload data entry
requirement. Mar 1, 2008 - Joint permits and TMDL workgroup will develop recommendations
for data system linkage improvements. Sept 30, 2008 – OW will implement appropriate data
system linkage improvements based on these recommendations.

Recommendation 1-2. Annually report on the progress of TMDL implementation activities
completed nationwide (e.g., wasteload allocations in NPDES permits and best management
practices completed).
We do not concur with this recommendation based on issues of data availability and feasibility.
Our recognition of implementation as a key milestone and our commitment to study and assess
TMDL implementation is amply demonstrated in our multiple existing and continuing studies of
implementation success factors, tracking requirements, State capacity, and implementation rates,
where data are available. We appear to share with the OIG the desire to understand
implementation rates and successes, but we do not concur on this recommendation’s wording
mainly because it is infeasible to require or otherwise accomplish tracking and reporting of the
broad array of point and nonpoint control actions involved. This data constraint includes the
nonpoint BMPs over which EPA has no control and/or data; also, tracking wasteload allocations
in permits cannot be done in the current PCS data system and it is not possible to require States
to change their current data gathering to produce these kinds of data. Further, we do not believe




                                               18 

that the budgetary impacts of both annual and national reporting as recommended would justify
the product obtained.

The recommendation does leave EPA’s method for analyzing and reporting on TMDL
implementation somewhat open to interpretation. The OIG appears to recognize that full
national census of every TMDL implementation action is unachievable for numerous reasons
that OW explained in our past written responses and meetings. On the other hand, as now
worded, the analytical approach and therefore the magnitude of effort required by the annual and
national reporting is not clearly defined. Thus, options other than a full census might include:
reporting on implementation case study examples nationwide; reporting on all voluntarily
reported implementation data we obtain yearly; reporting on actions that EPA controls or funds;
or assessing a national, probabilistic sample of TMDLs for implementation actions. Of these,
only the census or the probabilistic sample study may provide statistically valid estimates of
national rates of implementation – but only if the site-specific implementation data on all permits
and BMPs are fully accessible. EPA cannot require the necessary State cooperation on tracking
these data and expects that data gaps may lead to inconclusive results from a census approach or
a sample approach. Further, if required annually, the same study would need to be repeated each
year with a new national sample at a non-trivial cost, for highly questionable value-added of
frequent re-documentation of continuing data gaps.

Our proposed alternate recommendation on this topic is based on actions for OW to take that are
feasible and cost-effective. We propose to report annually on the TMDL implementation actions
that are tracked in our data systems, while continuing to assess the potential options for
additional TMDL implementation analyses where sufficient data exist. Regarding
implementation of permits, the joint workgroup recommendations discussed above will also
address the feasibility of tracking point source-related control actions. Regarding implementation
of BMPs, we propose to provide information within the TMDL data system on CWA Section
319 nonpoint source funds used to implement specific TMDL actions. In addition, the TMDL
program will continue its ongoing studies of TMDL implementation and evaluate the options for
further action.

DECISION: NON-CONCURRENCE
ALTERNATE RECOMMENDATION: Report annually on TMDL implementation actions
funded or tracked directly by EPA and analyze whether voluntary cost-effective methods to
obtain additional forms of implementation information can be developed.
PLANNED COMPLETION: Mar 1, 2008 – OW will collect information on CWA Section 319
nonpoint source funds used to implement TMDLs. Mar 1, 2008 - Joint permits and TMDL
workgroup will issue recommendations on options for tracking point source related actions.
November 30, 2008 – OW will report on implementation actions that will be incorporated with
year-end performance documents for FY2008.

Recommendation 1-3. Annually report on the progress of water quality improvements
resulting from TMDLs nationwide. This recommendation may be addressed in conjunction
with Recommendation 1-5.




                                                19 

We concur with this recommendation, with comment. We suggest that 1-3 can be fully covered
by merging it with recommendation 1-5, which concerns clarifying our existing measures. We
have initiated the steps to upgrade our tracking systems to be capable of separating out the
formerly lumped multiple ‘causes for removal’ that were criticized in the draft report.

DECISION: CONCURRENCE
PLANNED COMPLETION: September 30, 2008

Recommendation 1-4. Clarify terminology and the counting methodology for the two TMDL
development measures in EPA’s Annual Performance Plan and Annual Report.
We concur with this recommendation and have begun to institute corrective actions. The TMDL
program discussed and approved a revised counting methodology at our March 2007 national
meeting. This method resolves regional variation leading to any potential miscounting and
promotes consistency across all regional reporting of TMDL counts based on the water body
segment/pollutant combination concept. The TMDL program plans to institute the corrected
count in our data systems during August 2007 and all historic and future TMDL counts will
reflect the revised counting methodology. Additionally, the methodology used to calculate
regional TMDL commitments for strategic measures has been revised in the 2008 National
Program Guidance to reflect the revised counting methodology. The revised counting
methodology will be fully implemented by the end of fiscal year 2007.

DECISION: CONCURRENCE
PLANNED COMPLETION: September 30, 2007

Recommendation 1-5. Clarify the activities and results, baseline year, and units of measure
reported in the effectiveness measure for restoring waters (Measure L and Annual
Performance Measure) in the Annual Performance Plan and any strategic planning guidance.
We concur with this recommendation, but with comment. Quantifying every sub-component of
these measures, while feasible in principle, needs State data and cooperation in reporting that
may not be uniformly available across the nation (see discussion above). However, the
clarifications in this recommendation and in Recommendation 1-3 can be made in the upcoming
cycles of the performance plan and strategic plan.

DECISION: CONCURRENCE
PLANNED COMPLETION: September 30, 2008

Recommendation 1-6. Clarify the costs included and the activities used to count water
segments as restored in the efficiency measure in the Annual Performance Plan.
We concur with this recommendation, with comment. OW agrees that the measure should be
clarified, but continues to assert that such a measure provides valuable management information.
We do note, however, that the measure encompasses far more than the scope of the TMDL
program and therefore cannot signify the efficiency of the TMDL program alone. OW will seek
opportunities to provide the public with clarifying information about this measure and its
limitations, including language in the Annual Performance Plan. In addition, OW will commit to




                                              20 

revisiting this measure when the program is reassessed in the PART process (projected Spring
2009).

DECISION: CONCURRENCE
PLANNED COMPLETION: September 30, 2008

       Thank you again for the opportunity to comment on this draft report. If you have
questions regarding our comments, please contact Craig Hooks, Director, Office of Wetlands,
Oceans and Watersheds, at (202) 566-6372.

Attachment




                                              21 

Attachment:
Detailed Responses to OIG Report, Total Maximum Daily Load Program Needs Better Data
and Measures to Demonstrate Environmental Results, Draft of June 7, 2007

No.   Pg/Section     Draft Report Text                 OW Response
1     At a Glance    (general)                         We find the fact sheet summary format to be a useful recap of
      fact sheet                                       the TMDL program setting and the status of the OIG findings
                                                       and recommendations. The text is mostly accurate in content
                                                       and objective in tone. We have two suggestions in the interest
                                                       of the clearest possible description of the role and function of
                                                       TMDL program, below.
2     At a Glance    TMDLs play a critical role as     TMDLs are oriented more toward restoration of impairments
      factsheet/     a backstop for the Nation’s       than protection, thus the first sentence under Background could
      Background     clean water protection            more appropriately read “TMDLs play a critical role in the
                     program.                          Nation’s clean water protection program by calculating
                                                       changes in pollutant loads necessary to restore impaired
                                                       waters.”
3     At a Glance    EPA’s lack of information         We believe the current text is in error because it was meant to
      factsheet/     prevents the Agency from          refer specifically to implementation of TMDLs, not all TMDL
      What we        determining if activities are     program activities. We have provided information that
      found          occurring in a timely manner...   demonstrates our comprehensive tracking of other key TMDL
                                                       program activities such as 303(d) listing of impaired waters,
                                                       prioritized scheduling for TMDL development, TMDL
                                                       development itself, and TMDL approval. Our suggested
                                                       rewording would be “EPA’s lack of information prevents the
                                                       Agency from determining if TMDL implementation activities
                                                       are occurring in a timely manner...”
4     1/             A TMDL specifies the              We agree that defining a TMDL is key information to this
      Background     maximum amount of a               report, but feel that the wording currently is in error as it lacks a
                     pollutant that a waterbody can    key part of what TMDLs do – provide a scientific calculation of
                     receive and still meet water      how pollutant loads can be reduced to meet water quality
                     quality standards and allocates   standards. We suggest the following modification:
                     pollutant loadings among the      “A TMDL specifies the maximum amount of a pollutant that a
                     sources that discharge the        waterbody can receive and still meet water quality standards.
                     pollutant.                        As such, TMDLs provide a scientific calculation of how much
                                                       the pollutant loads from the sources that discharge the pollutant
                                                       into impaired waters need to be reduced to meet those
                                                       standards.”

5     2/TMDL         ....also known as blended         We recommend deleting the phrase as the meaning is clear
      Dev’pment      TMDLs.                            without it and we have avoided using the term ‘blended’ with
      and Impl.                                        TMDLs of any sort due to its strong association with point
                                                       source mixing zones.
6     3/resources    According to Office of Water      The text has misinterpreted information we provided during the
      spent on the   staff, the Agency does not        informal review of the 1/25 draft. At that time we stated: As the
      TMDL           have a recent estimate of the     authors note, these cost figures are potentially inaccurate for
      program        cost of implementing these        representing 2007 estimates, and they have a wide range of
                     TMDLs, but has been working       variability. While we do not have more recent or more accurate
                     on several projects that may      comprehensive cost estimates, we have funded three pilot
                     provide more accurate             watershed scale TMDL project components that are expected to
                     estimates by the summer of        yield by this summer cost-benefit information on watershed v.
                     2007.                             waterbody approaches.




                                                       22 

                                                      This information was provided to indicate that these pilot
                                                      projects would increase understanding of relative cost
                                                      differences between two generic approach options, not to
                                                      provide new or more accurate national cost estimates. We
                                                      recommend the text be revised to say, “According to Office of
                                                      Water staff, the Agency does not have a recent estimate of the
                                                      nationwide cost of implementing these TMDLs, but expects to
                                                      complete several projects that compare costs of watershed vs.
                                                      water body approaches by the summer of 2007.”
7    4/             (whole section)                   OW appreciates the addition of this section since the previous
     noteworthy                                       draft. It recognizes our successful tracking of a number of
     achievemts                                       program elements and ongoing efforts to address the
     by the                                           measurement and tracking elements that are not yet well
     program                                          documented. Most importantly, it acknowledges the PART-
                                                      driven TMDL measures and the TMDL program’s success
                                                      meeting the central measure that is clearly and solely its own:
                                                      development and completion of TMDLs.
8    5/more data    EPA does not have                 The lead sentence is not fully consistent in meaning with the
     needed to      comprehensive data to             section title; ‘results’ of the program include 303d lists and
     quantify       determine the results of the      completed and approved TMDLs which are well documented,
     results of     TMDL program nationwide.          but data on implementation rates and outcomes are minimal.
     TMDL                                             We suggest the following revision: “EPA does not have
     implem.                                          comprehensive data to determine the environmental results of
                                                      TMDL implementation nationwide.”

9    6/             5 According to Office of          This is one of two actions we have taken that both may be
     (footnote 5)   Water staff, EPA is also fixing   appropriate to footnote. We suggest the footnote read, “5
                    a database loophole that          According to Office of Water staff, an OW workgroup of permits
                    previously allowed regions to     and TMDL data systems staff is identifying recommended steps
                    circumvent this requirement       to improve permit/TMDL information linkages. EPA is also
                    when entering TMDL data           fixing a database loophole that previously allowed regions to
                    into the system.                  circumvent this requirement when entering TMDL data into the
                                                      system.”

10   9/TMDL         Second, EPA is not                The TMDL program approved a revised counting methodology
     development    consistently counting TMDLs       paper at our March 2007 national meeting. This method
     measures are   in this measure. Although         resolves regional variation related to any potential miscounting
     not clear      TMDL is defined as a              and promotes consistency across all regional reporting of
                    waterbody-pollutant               TMDL totals based on the water body segment/pollutant
                    combination, the numbers          combination concept. The TMDL program will institute the
                    reported for this measure also    corrected count in our data systems during August 2007 and
                    include the cause of the          program documents from the end of FY2007 onward will reflect
                    waterbody being impaired.         the revised counting methodology.
                    Thus, a single TMDL may be
                    counted for several causes of
                    impairment that it addresses.
                    By counting TMDLs this way,
                    the reported number of
                    developed TMDLs is inflated
                    by approximately 6 percent
                    (approximately 1,300
                    TMDLs). If EPA continues to




                                                      23 

                   use this methodology, it
                   should clarify how it counts
                   TMDLs in annual reports and
                   national program guidance.
11   12/           Although they may be difficult    We firmly concur with this broad, general statement and have a
     conclusions   to obtain, EPA needs more         record of actions that move toward resolving this issue. We
                   data to effectively oversee the   might not fully agree on the specific actions that should be taken
                   program and determine if it is    to accomplish this purpose, or on the frequency and intensity of
                   on track with national clean      data collection and assessment. See individual discussions
                   water objectives.                 under each recommendation for details.




                                                     24 

                                                                            Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of Water
Acting Inspector General




                                             25 

